<html>
<title> - DONALD B. VERRILLI, JR., OF CONNECTICUT, NOMINEE TO BE SOLICITOR GENERAL OF THE UNITED STATES; VIRGINIA A. SEITZ, OF VIRGINIA, NOMINEE TO BE ASSISTANT ATTORNEY GENERAL, OFFICE OF LEGAL COUNSEL, U.S. DEPARTMENT OF JUSTICE; AND DENISE E. O'DONNELL, OF NEW YORK, NOMINEE TO BE DIRECTOR, BUREAU OF JUSTICE ASSISTANCE, U.S. DEPARTMENT OF JUSTICE</title>
<body><pre>[Senate Hearing 112-430]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-430

   CONFIRMATION HEARING ON DONALD B. VERRILLI, JR., OF CONNECTICUT, 
   NOMINEE TO BE SOLICITOR GENERAL OF THE UNITED STATES; VIRGINIA A. 
SEITZ, OF VIRGINIA, NOMINEE TO BE ASSISTANT ATTORNEY GENERAL, OFFICE OF 
LEGAL COUNSEL, U.S. DEPARTMENT OF JUSTICE; AND DENISE E. O'DONNELL, OF 
 NEW YORK, NOMINEE TO BE DIRECTOR, BUREAU OF JUSTICE ASSISTANCE, U.S. 
                         DEPARTMENT OF JUSTICE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             MARCH 30, 2011

                               ----------                              

                          Serial No. J-112-13

                               ----------                              

         Printed for the use of the Committee on the Judiciary










                                                        S. Hrg. 112-430

   CONFIRMATION HEARING ON DONALD B. VERRILLI, JR., OF CONNECTICUT, 
   NOMINEE TO BE SOLICITOR GENERAL OF THE UNITED STATES; VIRGINIA A. 
SEITZ, OF VIRGINIA, NOMINEE TO BE ASSISTANT ATTORNEY GENERAL, OFFICE OF 
LEGAL COUNSEL, U.S. DEPARTMENT OF JUSTICE; AND DENISE E. O'DONNELL, OF 
 NEW YORK, NOMINEE TO BE DIRECTOR, BUREAU OF JUSTICE ASSISTANCE, U.S. 
                         DEPARTMENT OF JUSTICE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 30, 2011

                               __________

                          Serial No. J-112-13

                               __________

         Printed for the use of the Committee on the Judiciary



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-503 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director











                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     4
    prepared statement...........................................   411
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     3
Schumer, Hon. Chuck, a U.S Senator from the State of New York, 
  prepared statement.............................................   457
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................     1

                               PRESENTERS

Blumenthal, Hon. Richard, A U.S. Senator from the State of 
  Connecticut presenting Donald B. Verrilli, Jr., Nominee to be 
  Solicitor General of the United States.........................    10
Carper, Hon. Thomas R., a U.S. Senator from the State of Delaware 
  presenting Virginia A. Seitz, Nominee to be Assistant Attorney 
  General, Office of Legal Counsel, U.S. Department of Justice...     7
Coons, Hon. Christopher A., a U.S. Senator from the State of 
  Delaware presenting Virginia A. Seitz, Nominee to be Assistant 
  Attorney General, Office of Legal Counsel, U.S. Department of 
  Justice........................................................     9
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York presenting Denise E., O'Donnell, Nominee to be Director, 
  Bureau of Justice Assistance, U.S. Department of Justice.......     5

                       STATEMENTS OF THE NOMINEES

O'Donnell, Denise E., Nominee to be Director, Bureau of Justice 
  Assistance, U.S. Department of Justice.........................   145
    biographical information.....................................   146
Seitz, Virginia A., Nominee to be Assistant Attorney General, 
  Office of Legal Counsel, U.S. Department of Justice............    88
    biographical information.....................................    89
Verrilli, Donald, B., Jr., Nominee to be Solicitor General of the 
  United States..................................................    14
    biographical information.....................................    16

                         QUESTIONS AND ANSWERS

Responses of Denise E. O'Donnell to questions submitted by 
  Senators Leahy, Coburn and Grassley............................   227
Responses of Virginia A. Seitz to questions submitted by Senators 
  Grassley and Sessions..........................................   243
Responses of Donald B. Verrilli to questions submitted by 
  Senators Grassley, Hatch, Sessions, Coburn and ACLU v. NSA 
  Amicus.........................................................   254

                       SUBMISSIONS FOR THE RECORD

Beckner, C. Frederick, III, Sidley Austin LLP, Washington, DC, 
  February 28, 2010, letter......................................   396
Berenson, Bradford A., Sidley Austin LLP, Washington, DC, 
  February 3, 2011, letter.......................................   398
Carper, Hon. Thomas, a U.S. Senator from the State of Delaware, 
  prepared statement.............................................   400
Carvin, Michael A., Jones Day, Washington, DC, February 10, 2011, 
  letter.........................................................   404
Fitzpatrick, Brian, Vanderbilt Law School, Nashville, Tennessee, 
  February 1, 2011, letter.......................................   406
General Counsels of 30 Businesses, March 28, 2011, joint letter..   407
Gillibrand, Hon. Kirsten E., a U.S. Senator from the State of New 
  York, prepared statement.......................................   410
Jorgensen, Jay T., Sidley Austin LLP, Washington, DC, March 29, 
  2011, letter...................................................   426
Landau, Christopher, Kirkland & Ellis LLP, Washington, DC, 
  January 12, 2011, letter.......................................   428
Lieberman, Hon. Joseph, a U.S. Senator from the State of 
  Connecticut, prepared statement................................   430
Keisler, Peter D., Sidley Austin LLP, Washington, DC, February 9, 
  2011, letter...................................................   432
Klingler, Richard, Sidley Austin LLP, Washington, DC, February 7, 
  2011, letter...................................................   435
Mahoney, Maureen E., Latham & Watkins LLP, Washington, DC, 
  February 11, 2011, letter......................................   437
Major County Sheriffs' Association, Douglas C. Gillespie, 
  Sheriff, Alexandria, Virginia, January 21, 2011, letter........   439
Nager, Glen D., Jones Day, Washington, DC, February 7, 2011, 
  letter.........................................................   440
National Chamber Litigation Center (NCLC), Robin S. Conrad, 
  Executive Vice President, Washington, DC, February 11, 2011, 
  letter.........................................................   442
National Criminal Justice Association (NCJA), Kristen Mahoney, 
  President, Washington, DC, April 27, 2011, letter..............   444
National Women's Law Center, Nancy Duff Campbell, Co-President, 
  and Marcia D. Greenberger, Co-President, Washington, DC, 
  February 24, 2011, joint letter................................   445
O'Donnell, Denise E., Nominee to be Director, Bureau of Justice 
  Assistance, U.S. Department of Justice, statement..............   447
Office of Legal Counsel, Republican and Democratic 
  Administrations, Lawyers, March 15, 2011, joint letter.........   448
Otis, Lee Liberman, Falls Church, Virginia, February 9, 2011, 
  letter.........................................................   452
Phillips, Carter G., Managing Partner, Sidley Austin LLP, 
  Washington, DC, January 14, 2011, letter.......................   454
Seitz, Virginia A., Nominee to be Assistant Attorney General, 
  Office of Legal Counsel, U.S. Department of Justice, statement.   459
Sohn, Gigi B., President, Public Knowledge, Washington, DC, March 
  30, 2011, letter...............................................   461
Taranto, Richard G., Farr & Taranto and Carter G. Phillips, 
  Sidley Austin, LLP, Washington, DC, February 10, 2011, joint 
  letter.........................................................   462
Todd, Gordon D., Sidley Austin LLP, Washington, DC, February 7, 
  2011, letter...................................................   466
Verrilli, Donald B., Jr., Nominee to be Solicitor General of the 
  United States, statement.......................................   468

 
   DONALD B. VERRILLI, JR., OF CONNECTICUT, NOMINEE TO BE SOLICITOR 
 GENERAL OF THE UNITED STATES; VIRGINIA A. SEITZ, OF VIRGINIA, NOMINEE 
    TO BE ASSISTANT ATTORNEY GENERAL, OFFICE OF LEGAL COUNSEL, U.S. 
DEPARTMENT OF JUSTICE; AND DENISE E. O'DONNELL, OF NEW YORK, NOMINEE TO 
 BE DIRECTOR, BUREAU OF JUSTICE ASSISTANCE, U.S. DEPARTMENT OF JUSTICE

                              ----------                              


                       WEDNESDAY, MARCH 30, 2011

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:34 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Sheldon 
Whitehouse, presiding.
    Present: Senators Whitehouse, Leahy, Schumer, Klobuchar, 
Franken, Coons, Blumenthal, Grassley, Sessions, Hatch, and Lee.

 OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, A U.S. SENATOR 
                 FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. The hearing will come to order. We will 
this afternoon be considering three nominations to key posts in 
the Department of Justice, and just before I make a few opening 
remarks, I want to let everybody know what the order of 
proceeding is going to be.
    After my statement I will recognize the Ranking Member, the 
distinguished Senator from Utah, Mr. Hatch, Orrin Hatch, for 
his opening remarks, and then we will go to the Senators who 
have introductions to make of the nominees. The first will be 
Senator Schumer, who will introduce Denise O'Donnell, the 
nominee to be the Director of BJA. Then we will go to Senator 
Carper and Senator Coons of Delaware, who will introduce 
Virginia Seitz, who is the nominee to be the Assistant Attorney 
General for OLC. And then Senator Blumenthal will have the 
opportunity to introduce Don Verrilli, who is the nominee to be 
Solicitor General. Then they will come forward, and we will 
proceed with the hearing.
    We in Congress and the American people have tasked our 
Department of Justice with very weighty responsibilities: 
protecting the Nation against national security threats, 
preventing and punishing crime, and ensuring the fair 
administration of justice. The Department must defend both our 
constitutional rights and our safety. It must balance its 
substantial authority with strict adherence to the rule of law.
    The Senate is given a key role in ensuring that the 
Department meets its great responsibilities. We must provide 
the Department of Justice with the tools and resources it needs 
to fulfill its vital mission, and we must make sure that the 
Attorney General of the United States has the core group of 
leaders in place to enable him or her to perform the 
Department's responsibilities effectively.
    Unfortunately, the Senate recently has lagged in the latter 
regard. The Deputy Attorney General is a key operational leader 
within the Department of Justice, but the current nominee has 
been denied a vote for almost 1 year. I do understand that 
lifetime judicial appointments have given rise to political 
disputes. But I hope that the operational needs of the Justice 
Department are not subjected to obstruction and delay. I 
certainly hope we will keep that concern in mind as we consider 
the three nominees before us today.
    The first, Donald B. Verrilli, Jr., has been nominated by 
the President to be Solicitor General of the United States. As 
we all know, the Solicitor General has the privilege to 
represent the United States in the Supreme Court. For that 
reason, a Solicitor General must be a lawyer of the highest 
intellect and character. Mr. Verrilli clearly meets this bar. 
He is among our Nation's most respected and experienced 
appellate advocates, having argued 12 cases at the Supreme 
Court and participated as counsel in 22 more. Mr. Verrilli 
currently serves as Deputy Counsel to the President and 
previously served as Associate Deputy Attorney General in the 
Department of Justice. He spent over 20 years in private 
practice, and he clerked on the Supreme Court early in his 
legal career. His remarkable record prepares him well to serve 
as our Nation's next great Solicitor General.
    The Office of Legal Counsel, another of the Department's 
most important institutions, provides authoritative legal 
advice to the President and to executive agencies. As my 
colleagues know, I believe very strongly that the office 
betrayed its historic high standards during the previous 
administration. We need not relitigate those failings today, 
nor need we retread the ground of the nomination of Dawn 
Johnsen, which I believe was unfairly blocked. But I do hope 
that we will all keep in mind the high standards that the 
Office of Legal Counsel historically has achieved and the 
urgent need to adhere to those standards going forward.
    I have every expectation that Virginia Seitz, the 
President's nominee to lead the OLC, will honor those 
standards. She is a brilliant lawyer. In over 20 years of 
practice, she has worked on more than 100 Supreme Court briefs 
and hundreds of filings in lower courts, representing a wide 
range of clients. A Rhodes Scholar, she too clerked on the 
Supreme Court.
    Our final nominee, Denise E. O'Donnell, has been nominated 
to be the Director of the Bureau of Justice Assistance. The BJA 
supports law enforcement initiatives that strengthen our 
Nation's criminal justice system and coordinates important 
departmental grant programs, including the Bulletproof Vest 
Partnership Program, drug courts, the Byrne/JAG program, 
Federal assistance to State prescription drug monitoring 
programs, and the Prisoner Re-entry Initiative. Ms. O'Donnell 
comes before the Committee with a remarkable record of service 
in law enforcement leadership in New York State, most recently 
as Deputy Secretary for Public Safety. And as I mentioned to 
her earlier, she enjoys the strong support of Manhattan 
District Attorney Vance.
    I am glad to welcome such a qualified group of nominees to 
the Committee, and I look forward to their testimony, but first 
to the remarks of our distinguished Ranking Member, Senator 
Hatch.

STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE 
                            OF UTAH

    Senator Hatch. Well, thank you, Mr. Chairman. I am glad to 
assist the distinguished Ranking Member, Senator Grassley, and, 
of course, you, Mr. Chairman, in filling in today.
    I want to welcome the three nominees before us each of whom 
is nominated to head a key component of the Department of 
Justice. The Bureau of Justice Assistance, for example, 
provides a bridge between the State and Federal Governments in 
helping law enforcement. Ms. O'Donnell, I note that you 
received your undergraduate degree from Canisius College in 
Buffalo. One year ago yesterday, I was privileged to deliver 
the Raichle Lecture on Law in American Society at Canisius, 
which has a strong and innovative pre-law center. Welcome to 
the Committee.
    Ms. Virginia Seitz has been nominated to head the Office of 
Legal Counsel. She has the extensive private practice 
experience that the previous nominee lacked and, frankly, does 
not appear to have the extreme ideological baggage that many 
felt the previous nominee carried. She also has strong support 
among prominent lawyers from across the political spectrum. In 
fact, one of them is my former chief of staff who caught me on 
the way in to make sure that you are treated very well. And I 
intend to do that.
    [Laughter.]
    Senator Hatch. In spite of Senator Schumer, I intend to.
    She also has strong support among prominent lawyers from 
across the political spectrum. My hope is that this more 
balanced background of legal experience and broad-based support 
will make her a more suitable nominee to this position.
    Mr. Donald Verrilli also has extensive courtroom experience 
and comes highly recommended by many distinguished leaders in 
the legal profession, both liberal and conservative. His 
nomination might not have been controversial at all had the 
Obama administration not recently abandoned its duty to defend 
the constitutionality of the Defense of Marriage Act. Previous 
Solicitor General nominees of both parties have affirmed the 
duty of defending Congress' statutes if reasonable arguments 
can be made. With very rare exceptions that do not apply to the 
Defense of Marriage Act, if a reasonable argument can be made, 
then that reasonable argument must be made. Once a law is 
enacted, that is the Department of Justice's duty.
    A statute like the Defense of Marriage Act does not 
suddenly become unconstitutional simply because the President's 
party does not like. The Department's duty is not limited to 
making what it considers the best legal arguments or the safest 
legal arguments or legal arguments that send messages to its 
political base. The Department's duty is to make any reasonable 
argument that can be made.
    Reasonable arguments certainly can be made that the Defense 
of Marriage Act is constitutional. How do I know this? Well, 
because this very same Justice Department has already made them 
in court and has even offered to make them again. In my view, 
the administration has abandoned its duty to Congress in order 
to do a political favor for a political constituency. As a 
result, this will be an issue in the context of Mr. Verrilli's 
nomination. However, I intend to treat Mr. Verrilli very 
fairly, as I always try to do, and I have great respect for 
him.
    Mr. Chairman, I will not take any more time so we can hear 
the nominees and ask various questions. Thank you.
    Senator Whitehouse. Thank you, Senator Hatch.
    I am going to depart briefly from the schedule that I 
announced at the beginning because the distinguished Ranking 
Member of the Committee, and not just today's co-chair, is 
here. Senator Grassley is our Ranking Member and would like to 
offer an opening statement, and I will very gladly accommodate 
his wish.
    Senator Grassley. I have a very long opening statement, so 
I am just going to refer to part of it.
    Senator Whitehouse. The entire statement will be admitted 
into the record with unanimous consent.

STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM THE STATE 
                            OF IOWA

    Senator Grassley. The task of the Office of Solicitor 
General is to supervise and conduct Government litigation in 
the Supreme Court. Virtually all such litigation is channeled 
through the Office of Solicitor General and is thereby 
conducted by the office. The United States is involved in 
approximately two-thirds of the cases before the Supreme Court, 
so this is a very important position.
    Mr. Verrilli is nominated to be Solicitor General of the 
United States. He is not the President's Solicitor General nor 
the Solicitor General for the Department of Justice. The 
Solicitor General must be an independent voice within the 
administration. That means courage and willingness to defend 
all the laws and the Constitution of the United States 
regardless of the politics of the moment. And this is 
particularly important given the President's announcement that 
he would not defend the Defense of Marriage Act.
    Likewise, the Assistant Attorney General heading the Office 
of Legal Counsel must also be an independent and non-political 
voice. I will not describe the duties of the office, but I want 
to highlight the delegation from the Attorney General that this 
official provides authoritative advice to the President. The 
Office of Legal Counsel drafts legal opinions for the Attorney 
General and also provides its own written opinion and oral 
advice in response to requests from the Counsel to the 
President.
    The office is also responsible for providing legal advice 
to the executive branch on all constitutional questions and 
reviewing pending legislation for constitutionality. In 
performing these duties, the Assistant Attorney General heading 
this office must do so without regard to political pressure.
    I would note that this office has not had a Senate-
confirmed person since Jack Goldsmith, confirmed October 2003. 
Upon his departure, the President nominated Mr. Bradbury in 
June of 2005 to fill the vacancy, and there was a hearing soon 
afterwards, reported out of Committee November 2005. Mr. 
Bradbury waited more than 3 years for Senate approval, which 
never came. President Obama's first nominee for this position 
was Dawn Elizabeth Johnsen. Her nomination was controversial, 
and was eventually withdrawn by the President.
    The third office for which we are considering a nominee is 
the Bureau of Justice Assistance, a component of the Office of 
Justice Programs within the Department of Justice. I would like 
to emphasize that the policy, programs and planning which this 
office administers must be accomplished in a nonpartisan 
fashion. This office supports law enforcement and our Nation's 
criminal justice system. It is essential that this office 
promote local control of law enforcement and is fairly and 
officially administering grant programs.
    Two of the nominees--Ms. Seitz and Ms. O'Donnell--graduated 
from the same law school. Ms. Seitz and Mr. Verrilli each 
clerked on the same Court. Both clerked for Justice Brennan. I 
commend each of the nominees for their prior public service, 
and I will put the rest of my statement in the record.
    [The prepared statement of Senator Grassley appears as a 
submission for the record.]
    Senator Whitehouse. Thank you, Senator Grassley.
    To introduce his home State nominee, Senator Schumer.

   PRESENTATION OF DENISE O'DONNELL, NOMINEE TO BE DIRECTOR, 
 BUREAU OF JUSTICE ASSISTANCE, U.S. DEPARTMENT OF JUSTICE, BY 
 HON. CHARLES E. SCHUMER, A U.S. SENATOR FROM THE STATE OF NEW 
                              YORK

    Senator Schumer. Thank you, Mr. Chairman, and I am really 
honored to introduce one of the most dedicated and talented 
public servants the State of New York has to offer: Denise 
O'Donnell.
    The job of managing the Bureau of Justice Assistance is 
like taking a thousand points of light and making sure they all 
stay lit. Police officers, judges, victims of crimes, 
counselors, and a host of others who are involved in the 
criminal justice system every day depend on the grants and the 
expertise that comes from BJA to keep cops on the beat and 
communities safe. This job is even more challenging today when 
everyone has to figure out how to do more with less.
    Now, I have known Denise and her wonderful family for a 
long time--first, as the very accomplished and respected U.S. 
Attorney for western New York where we teamed up to launch 
Project Exile, a very successful effort to address the scourge 
of illegal crime guns; and then later in private practice where 
we worked together--she was in private practice; I was not; I 
never have been--on a number of issues related to New York's 
school boards. She went on to compete for public office and 
then served, to universal acclaim, as a New York State Criminal 
Justice Commissioner. So she has plenty of experience, and she 
is a nonpartisan, on-the-merits person, the kind of person 
Senator Grassley mentioned. I am sure that when you look at 
Denise O'Donnell's history, you will see that she confirms 
that.
    Denise is deeply committed to public service and the 
impartial, enlightened administration of justice. In short, 
there could be no one better suited to this job than Denise 
O'Donnell. She served as a lawyer, prosecutor, executive-level 
manager, policymaker, and professional social worker. She has 
dedicated her career to improving the judicial system in our 
State, and after she is confirmed, she will do the same thing 
for the country.
    She is a native of Buffalo. She is the oldest of six 
children, a graduate of Mount St. Joseph Academy High School. 
She was a member of the first class that graduated women in the 
formerly all-male Jesuit school, Canisius College, of which we 
are all very proud in the western New York area.
    She went on to earn a master's degree in social work and a 
J.D. summa cum laude from SUNY at Buffalo. After joining the 
U.S. Attorney's Office in the Western District, she rose to 
become the first Assistant U.S. Attorney and was appointed to 
be the U.S. Attorney for that office, the first woman for that 
position. During that time she served as the Vice Chair of the 
Attorney General's Advisory Committee. Among other significant 
cases, she helped bring Timothy McVeigh to justice.
    After she left office, she worked in one of the State's 
oldest law firms, Hodgson Russ. Before returning to public 
service as the Commissioner of the New York State Division of 
Criminal Justice, where she oversaw a $64 million operating 
budget, $86 million in local assistance, and $67 million in 
Federal criminal justice assistance, she ran programs too 
numerous to list, but they included the State's first DNA data 
bank, the sex offender registry, and State and local re-entry 
task forces. She has a long and accomplished resume, so I will 
ask unanimous consent that my entire statement be read in the 
record, but just one more mention. She held the post of Deputy 
Secretary of Public Safety, managed 12 public safety agencies, 
a budget of $4.7 billion, oversaw a portfolio of 11 homeland 
security and criminal justice agencies, including the Division 
of Criminal Justice Services, Office of Homeland Security, and 
Division of the State Police and Department of Corrections. 
Forty thousand employees, about 19 percent of the State's 
workforce was under Denise's jurisdiction. She now serves on 
the New York State Justice Task Force to Prevent Wrongful 
Convictions in the Criminal Justice Council of New York.
    Mr. Chairman and my colleagues, I know Denise well. She is 
just a superlative public servant, a superlative human being, 
and I think that she will meet the satisfaction of everyone on 
this Committee because she is, again, an on-the-merits public 
servant, and I ask unanimous consent that the rest of my 
statement be read into the record.
    Senator Whitehouse. Without objection, the rest of your 
statement will be in the record.
    [The prepared statement of Senator Schumer appears as a 
submission for the record.]
    Senator Whitehouse. Also without objection, a statement on 
the nomination of Denise O'Donnell by Senator Kirsten 
Gillibrand will be in the record. She could not be here, but 
her statement is both warm and enthusiastic in support of this 
candidate.
    [The prepared statement of Senator Gillibrand appears as a 
submission for the record.]
    Senator Whitehouse. To introduce our next nominee, we have 
Senator Carper and Senator Coons of Delaware. Senator Carper, 
would you proceed?

  PRESENTATION OF VIRGINIA SEITZ, OF DELAWARE, NOMINEE TO BE 
   ASSISTANT ATTORNEY GENERAL, OFFICE OF LEGAL COUNSEL, U.S. 
DEPARTMENT OF JUSTICE, BY HON. THOMAS R. CARPER, A U.S. SENATOR 
                   FROM THE STATE OF DELAWARE

    Senator Carper. Thanks so much, Mr. Chairman, Senators 
Hatch and Grassley and our colleagues. Thank you for this 
opportunity, especially to my colleague Senator Coons.
    To the folks in the audience, it is not uncommon for people 
from the same home State of a nominee to be here to introduce 
him, and we are happy to do that--and in some cases, very happy 
to do it. For me, given the nominee that the President has 
submitted for this position of Assistant Attorney General for 
the Office of Legal Counsel, for me it is a privilege, just a 
great privilege, and I am humbled to be here to introduce 
Virginia Seitz. The President has made not just a wise choice 
in nominating Virginia Seitz for this position, but I think he 
had made an extraordinary choice, and I am delighted to be here 
to say so.
    In case anybody is wondering who Virginia Seitz is, she is 
right here over my right shoulder, and she is sitting next to a 
couple of young guys. One of these guys is--both are named Roy. 
One of them is her husband, and I think the younger one is her 
son, who is a 10th grader, I think, at the Field School, and 
Roy is her husband. I just want to say thanks to both of the 
Roys for your willingness to share your mom and your wife with 
the people of our country.
    I think we are fortunate as a Nation that someone with 
Virginia's outstanding credentials has stepped forward to do 
this important work. Her education, her background, and her 
experience are superbly suited for this position. I like to kid 
her. I said when she could not get into the University of 
Delaware as an undergraduate, she did manage to get into Duke 
and graduated only summa cum laude with a Bachelor of Arts 
degree. After that she went off to England where she studied at 
Oxford and was awarded a Rhodes scholarship there, and later on 
her law degree from the University of Buffalo. There is a 
little Buffalo thing going on here if you listened to Senator 
Schumer's introduction. But Virginia Seitz graduated first in 
her law school class at the University of Buffalo.
    She went on from there to clerk for one of the judges here 
on the D.C. Circuit Court of Appeals, a fellow by the name of 
Harry Edwards, and then later, as I think has been mentioned, 
as a clerk for U.S. Supreme Court Justice William Brennan.
    Currently she is a partner at the law firm of Sidley Austin 
right here in Washington, D.C. She is one of the Nation's 
leading appellate litigators. With over 20 years of litigation 
experience, Virginia Seitz has hundreds of briefs and petitions 
for Federal courts, and someone else mentioned, I think, more 
than 100 briefs in the Supreme Court alone.
    Aside from her professional experience, Virginia Seitz is a 
person of extraordinary integrity and character. What do they 
say about integrity? If you have it, nothing else matters. If 
you do not have it, nothing else matters. And she is a person 
of extraordinary integrity.
    She is joined today, as I said earlier, by several members 
of her family, including her husband Roy, her son Roy, and one 
of her three brothers is here. You have two other brothers, 
right? Yes. And one of her three brothers is here, and his name 
is C.J. Seitz. He is sitting immediately behind Virginia. He is 
one of the outstanding attorneys in the State of Delaware. He 
is someone we are just extraordinarily proud of as well.
    But Virginia is proud of her family's deep roots in our 
State. Her father, C.J. Seitz, attended the University of 
Delaware and then obtained his law degree from the University 
of Virginia. C.J. Seitz served as vice chancellor of our State, 
he served as chancellor for our State, the Court of Chancery. 
He served also for about 20 years on the Delaware bench and 
then joined the Third Circuit Court of Appeals. He was very 
much involved as a chancellor in some of the civil rights 
legislation--litigation, rather, of the 1950's.
    As Virginia has said of her dad, he was a great man, and I 
know he is very proud of his daughter today, and his son--sons, 
actually. I too am proud to have the privilege of introducing 
someone from my State, from our State, who has done and will 
continue to do, I believe, just extraordinary service for our 
Nation. With her legal background and acumen, her tireless work 
ethic, and her experience as a Federal litigator, Virginia 
Seitz is more than qualified to serve as Assistant Attorney 
General for the Office of Legal Counsel.
    I just want to say I was privileged to serve as Governor 
for a while and got to nominate a lot of people to serve as 
judges, and she has all the qualities of anybody I ever looked 
for in that. The other thing I especially love about her, and, 
frankly, her family, from her dad and mom, C.J., her brother, 
these are people who are committed to figuring out the right 
thing and to doing it. These are folks who believe in the 
Golden Rule, treat other people the way they want to be 
treated. These are folks who focus on doing things well. As I 
like to say, if it is not perfect, make it better. They just 
focus on excellence. And the last thing is just they do not 
give up. They are hard-working family, really a great work 
ethic, and she is someone who I think will make us all proud. I 
am happy to commend her to you for your consideration, and 
thank you for this opportunity.
    Senator Whitehouse. Thank you, Senator Carper.
    Now, Senator Coons.

  PRESENTATION OF VIRGINIA SEITZ, OF DELAWARE, NOMINEE TO BE 
   ASSISTANT ATTORNEY GENERAL, OFFICE OF LEGAL COUNSEL, U.S. 
  DEPARTMENT OF JUSTICE, BY HON. CHRISTOPHER A. COONS, A U.S. 
               SENATOR FROM THE STATE OF DELAWARE

    Senator Coons. Thank you, Senator Whitehouse, and I am 
pleased today to join the senior Senator from Delaware, Tom 
Carper, in introducing Virginia Seitz to the Committee and 
urging her consideration. Ms. Seitz is nominated, as you have 
heard, to be the Assistant Attorney General for the Office of 
Legal Counsel, and as head of OLC, she will be the top 
administration lawyer tasked with the mission of providing the 
President and executive agencies with legal advice that is 
thorough, accurate, insightful, and free of political 
expediency. And for this demanding job, I am proud that 
President Obama has selected both such an exemplary candidate 
and a Delawarean.
    Ms. Seitz was born and raised in Wilmington, Delaware, and 
there she and her three brothers attended the same high school, 
Tower Hill, as I did. I was a contemporary of one of her 
brothers, Steven, and I am proud to call another of her 
brothers, C.J., who joins us here today and is an outstanding 
member of the Delaware bar, my personal friend.
    As you heard from Senator Carper, Ms. Seitz hails from a 
very distinguished Delaware family. I had the privilege of 
meeting Justice/Judge/Chancellor Seitz who served for 20 years 
in Delaware's Court of Chancery when he was on senior status in 
the Third Circuit, and he helped build the unparalleled 
national reputation of our Court of Chancery. But more than 
anything, he showed wisdom, judgment, and fairness in the 
landmark case of Parker v. University of Delaware. Judge Seitz, 
although well known in Delaware, I think is not nationally 
heralded as much as he should be for being the first to order 
desegregation, to overturn legal segregation in our State.
    A later case, Belton v. Gebhart, was the one part case of 
Brown v. Board that was affirmed by the Supreme Court, that 
landmark case that once and for all ended legal segregation in 
the United States.
    From her childhood in Delaware, Ms. Seitz, who I think 
learned a great deal about principles and legal reasoning from 
her father, went on, as you heard, to attend Duke, Oxford, and 
Buffalo Law School, has spent time both in prestigious 
clerkships here with Judge Edwards and Justice Brennan, but in 
my view, more importantly than anything else, has a private 
practice career that spans 20 years. As an appellate attorney, 
she has become an expert in labor and employment law, a field 
where she has published many articles, spoken before many 
groups, including the Federalist Society.
    She is a distinguished appellate advocate and has worked 
on, as you heard, more than 100 Supreme Court briefs and for 
the several years has taught a course in practical Supreme 
Court advocacy at Northwestern, which allows students to learn 
from attorneys on cases they are preparing to argue before the 
Supreme Court.
    Ms. Seitz, with whom I had a chance to visit before this 
hearing, is universally respected as an outstanding attorney. 
She is a lawyer's lawyer. She has argued on both sides of civil 
rights cases. She has, in my view, no ideological agenda, and 
she has support from both sides of the aisle, including 
gentlemen such as Ted Olson, Jack Goldsmith, and Steven 
Bradbury, all of whom are known to members of this Committee 
and who served as the head of OLC under previous Republican 
Presidents.
    In 2003, Ms. Seitz worked on a case that allowed her to 
honor the outstanding legacy of her father's early 
desegregation decisions. She appeared as counsel in the case of 
Grutter v. Bollinger and successfully defended the University 
of Michigan Law School's admission system, which sought to 
achieve diversity within the student population along a very 
broad range of factors, including racial diversity among them.
    Although she lives in Washington today, Ms. Seitz remains a 
Delawarean at heart, by birth as well as by choice, and last 
year, just to reaffirm that, filed a petition for a writ of 
certiorari with the Supreme Court on behalf of our State in a 
dispute with some professional sports league over some State 
sports lottery that really probably only interested 
Delawareans.
    Let me close with this, if I might. If confirmed, Ms. Seitz 
will bring, in my view, greatly needed stability in leadership 
to OLC, which has, unfortunately, been beset by controversy and 
has not had a Senate-confirmed department head since 2004. I am 
confident that Ms. Seitz will bring to this office that perfect 
balance of intelligence, thoughtfulness, and an absolute lack 
of partisanship that will serve the Office of Legal Counsel 
well and will serve our Nation as well.
    I am honored to join our senior Senator in urging her 
consideration by the Committee. Thank you.
    Senator Whitehouse. Thank you, Senator Coons.
    And for our final introduction of his home State nominee, 
the Senator from Connecticut, Senator Blumenthal.

    PRESENTATION OF DONALD B. VERRILLI, JR., NOMINEE TO BE 
    SOLICITOR GENERAL OF THE UNITED STATES, BY HON. RICHARD 
    BLUMENTHAL, A U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman. I am very 
privileged and honored to introduce to this panel Donald B. 
Verrilli, Jr., who is the President of the United States' 
nominee to be Solicitor General of the United States, one of 
the most important positions in the system of justice and also 
in the U.S. Government, and he is here today with Gale Laster, 
who is his wife, and they have a 19-year-old daughter. I am not 
sure whether she is here today--she is not here. But I am sure 
she and Ms. Laster are very proud of Mr. Verrilli's many 
accomplishments, which more than fully qualify him to be in 
this position.
    He happens to be a Connecticut native--well, almost. He was 
born in New Rochelle, New York, right across the border, and 
then grew up in Wilton, Connecticut, where his mother was the 
first selectman of Wilton, I believe, from 1979 to 1985, by 
happenstance a Republican first selectman and, I know from my 
own experience, a very able first selectman, the chief local 
official of that town.
    Mr. Verrilli graduated from Wilton High School in 1975. He 
went on to attend Yale University, graduated in 1979 with a 
B.A. in history, and he then attended Columbia Law School, 
where he served as editor-in-chief of the Columbia Law Review. 
He served as a law clerk to Judge Skelly Wright of the United 
States Court of Appeals for the D.C. Circuit and then to 
Justice William Brennan of the United States Supreme Court.
    Mr. Verrilli has spent much of his career in private 
practice with over 20 years of litigation experience at the 
Washington, D.C. office of Jenner & Block, where he has focused 
on telecommunications, intellectual property law, First 
Amendment, copyright, a wide variety of subject matter, a lot 
of it at the highest levels of appellate practice with many 
briefs before the United States Supreme Court as well as the 
appellate courts and many personal arguments there. But he has 
also done a wide variety of pro bono litigation, representing, 
for example, Teach for America and the judges of the superior 
court of the District of Columbia.
    It is very important to understand what the Solicitor 
General does. He serves as the President's principal advocate 
in the United States Supreme Court, indeed, the United States' 
principal advocate, and Mr. Verrilli is superbly qualified for 
that role. He not only has chaired or co-chaired Jenner & 
Block's Supreme Court practice group from 2000 until his 
departure from the firm in 2009, but he has participated in 
more than 100 cases before the Supreme Court, including 
arguments in 12 such cases. He has participated in about 90 
cases before the United States Court of Appeals and the State 
supreme courts, arguing himself over 30 of those appeals. So he 
is an expert appellate litigator who has attained really the 
height of professional excellence throughout his impressive 
career.
    He has also served in the U.S. Government. He left his 
private practice in 2009 to join the Department of Justice as 
an Associate Deputy Attorney General where he served with 
distinction. He focused on domestic and national security 
policy issues, and he then moved to the White House, where he 
currently serves as Deputy Counsel to the President. So I think 
we all join in respecting and thanking him for his service to 
the country so far, as well as his willingness to undertake 
this new responsibility.
    Mr. Verrilli is not a judicial nominee. He will not be 
fulfilling a judicial role as an independent decisionmaker 
weighing both sides and then reading the law. He will be an 
advocate. His role as Solicitor General is to be an advocate 
for the President, but also he is an official charged with 
responsibility as an officer of the United States Supreme Court 
to advise that Court as well. And having argued side by side 
with the Solicitor General and having watched the United States 
Solicitor General in many cases advise the Court, he has a 
place of distinction unmatched by any private advocate before 
that Court. So someone of this distinction and background and 
expertise is an important resource to the United States Supreme 
Court.
    I would hope that his distinctions and his qualifications 
will not be combined with a fight over political disagreements 
or even with disagreements with him on particular issues. I 
have to confess, having gone through in some detail his record 
of arguments, I might disagree with him on some of the 
positions that he has taken as an attorney, as an advocate, 
before the United States Supreme Court. But the reason that he 
is endorsed by so many members of the Supreme Court bar is that 
he is superbly qualified and he has conducted himself with 
distinction throughout his career.
    As I am sure my colleagues know, he has been endorsed by 
many of the recent attorneys who have served in the position of 
Solicitor General in both Republican and Democratic 
administrations, including Charles Freed, Kenneth Starr, Drew 
Days, Walter Dellinger, Seth Waxman, Ted Olson, Paul Clement, 
Gregory Garre. And I think those endorsements really confirm 
the view that he is qualified for this position, and I 
recommend him very heartily to my colleagues.
    Thank you very much, Mr. Chairman.
    Senator Whitehouse. Thank you very much, Senator 
Blumenthal.
    It should probably be a matter of record before this 
Committee in this nomination that the opinions of Senator 
Blumenthal regarding appellate advocacy are not without a very 
significant foundation. If I am not mistaken, Senator 
Blumenthal has argued three or four times himself before the 
United States Supreme Court as Attorney General of Connecticut, 
in addition to presumably innumerable appearances before the 
State supreme court and the circuit court of appeals. So he 
knows whereof he speaks when he talks of talented appellate 
advocacy.
    Senator Blumenthal. Thank you very much, Mr. Chairman. I 
hope those very kind words will add some weight to my 
recommendation, but I think this nominee really stands on his 
own.
    Senator Whitehouse. As we conclude the introductions, I 
want to add into the record some of the letters of support that 
we have received. We have a letter of support from the 
nomination of Donald Verrilli to be Solicitor General from 
eight former Solicitors General from both Republican and 
Democratic administrations, including Charles Freed, Kenneth 
Starr, Ted Olson, Paul Clement, and Gregory Garre, who explain 
that they are all familiar with his work, his demeanor, and his 
well-deserved reputation as a leading member of the Supreme 
Court bar, and conclude that Mr. Verrilli is ``ideally suited 
to carry out the crucial tasks assigned to the Solicitor 
General and to maintain the traditions of the Office of the 
Solicitor General.'' And I will enter that letter into the 
record, without objection.
    [The letter appears as a submission for the record.]
    Senator Whitehouse. We also have another letter from over 
50 Supreme Court practitioners, including Miguel Estrada, Peter 
Keisler, and Maureen Mahoney, who all the signatories of that 
letter describe themselves as lawyers who are deeply familiar 
both with the work of the Solicitor General and with Don's own 
work and character. And they concluded that, I quote, ``Don is 
ideally suited to carry out the crucial tasks assigned to the 
Solicitor General, chiefly the representation of the United 
States in the Supreme Court, and to maintain the traditions of 
the office that the Solicitor General leaves.'' They ``urge the 
Senate to confirm him as Solicitor General,'' and I ask that 
their letter also be entered into the record, without 
objection.
    [The letter appears as a submission for the record.]
    Senator Whitehouse. And, finally, the general counsels of, 
I think, 29 different major American corporations from Booz 
Allen and GE to Bechtel and Viacom, to Exelon and Fidelity, 
Ford Motor Company, Northrop Grumman, Sony, Intel, Verizon, 
Microsoft, Google, Warner Brothers--a wide variety--have also 
written a letter of support that, without objection, I would 
like to add to the record.
    [The letter appears as a submission for the record.]
    Senator Whitehouse. Then we also have a number of letters 
that I would like to add to the record on behalf of Virginia 
Seitz: first, a letter of support from Peter Keisler, who is 
the former Assistant Attorney General for the Civil Rights 
Division and the former Acting Attorney General, therefore 
somebody knowledgeable about the Department and OLC, under 
President George W. Bush. In his letter, Mr. Keisler writes 
that, ``I believe the President has made an inspired choice.'' 
He describes Ms. Seitz as having an unusually sophisticated 
understanding of the law and legal plannings and a way of 
relating particular doctrines and rules to the law's underlying 
methods and purposes that reflects not only her extensive 
knowledge but also, and more fundamentally, a deep appreciation 
and respect for our distinctive legal tradition. And, without 
objection, I will add that to the record.
    [The letters appears as a submission for the record.]
    Senator Whitehouse. Maureen Mahoney is a former Deputy 
Solicitor General and a well-regarded appellate lawyer. She 
writes of Ms. Seitz: ``Despite our political differences, I am 
an ardent admirer of Virginia Seitz and strongly support her 
nomination.'' She notes, ``Virginia is not blinded by ideology. 
She knows how to be assertive without being aggressive, and she 
can bridge differences with insight and diplomacy. She also 
belongs to that rare breed of lawyers who are both brilliant 
and exceedingly modest.''
    We can probably stipulate that that is a rare breed.
    [Laughter.]
    Senator Hatch. So stipulated.
    Senator Whitehouse. And there are a considerable number of 
other letters of support that I will ask be added to the record 
of these proceedings, without objection.
    [The letters appears as a submission for the record.]
    Senator Whitehouse. And that being accomplished, if I could 
ask the nominees to step forward and be sworn, I would 
appreciate it.
    Please raise your right hand.
    Do you affirm that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you God?
    Mr. Verrilli. I do.
    Ms. Seitz. I do.
    Ms. O'Donnell. I do.
    Senator Whitehouse. Thank you. Welcome and please be 
seated.
    Why don't we just go right across the panel and begin with 
Mr. Verrilli. If you have a statement of any kind that you 
would like to make, now is your chance to make it, and we find 
that many of our nominees also take this opportunity to 
introduce their family and friends who are present and commit 
their presence to posterity through the good auspices of C-
SPAN.
    [Laughter.]
    Senator Whitehouse. So if you would like to do that, we 
would be very pleased for you to take that opportunity.

 STATEMENT OF DONALD B. VERRILLI, JR., NOMINEE TO BE SOLICITOR 
                  GENERAL OF THE UNITED STATES

    Mr. Verrilli. Thank you, Senator Whitehouse. I would like 
to begin, if I might, by introducing my wife, Gail Laster, who 
is, in addition to being a wonderful mother for our 19-year-old 
daughter, Jordan--who is starting her spring term this week as 
a freshman at Dartmouth, and that is why she is not here--she 
is a distinguished lawyer and public servant in her own right, 
having served as counsel on this Committee, having served as 
general counsel at the Department of Housing and Urban 
Development from 1997 to 2001, and currently as chief housing 
counsel for Ranking Member Frank on the House Financial 
Services Committee.
    And, in addition, I would like to introduce my brother-in-
law, Joseph Wayland, who is here today with his son, 
Christopher. Joe is currently in public service as the Deputy 
Assistant Attorney General for Antitrust in the Department of 
Justice, having left a long career in private practice to take 
up that obligation.
    I have an opening statement which, with your permission I 
would submit for the record.
    Senator Whitehouse. Without objection.
    Mr. Verrilli. I would like, if I could, to just say a few 
words by way of introduction.
    Senator Whitehouse. Please.
    Mr. Verrilli. I feel sitting here today a sense of profound 
gratitude--gratitude to my wife, Gail, for her love and 
position, gratitude to my parents, who are not here today but I 
think are huddled around a laptop watching the webcast of this 
proceeding, and so I do want to take this occasion to thank 
them for teaching me through the example of their own lives the 
fundamental importance of the values of dedication and 
integrity and decency and kindness, and most importantly, the 
invaluable lesson that so much more can be accomplished by 
bringing us together than through division.
    Of course, I also want to thank the President and am 
profoundly grateful to the President for the confidence he has 
shown in me with this nomination. I want to thank the Attorney 
General for his strong support, and I want to thank this 
Committee for the hearing today and taking the time to consider 
my nomination.
    I understand the weighty responsibilities and traditions of 
the Solicitor General's office, and if I am fortunate enough to 
be confirmed, I will do everything in my power to live up to 
the high standards of professionalism, independence, and 
integrity that have been set by Rex Lee and Seth Waxman and Ted 
Olson and the other Solicitors General who have served with 
such distinction during my time as a lawyer, as well as their 
illustrious predecessors.
    I fully understand that our Nation's commitment to the rule 
of law requires that the Solicitor General uphold those high 
standards, and I am humbled at the opportunity to take on that 
challenge.
    Thank you.
    [The biographical information of Mr. Verrilli follows.]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Senator Whitehouse. Thank you very much, Mr. Verrilli.
    Ms. Seitz, you have the opportunity as Mr. Verrilli to 
introduce family and make a statement. Please proceed.

    STATEMENT OF VIRGINIA A. SEITZ, NOMINEE TO BE ASSISTANT 
 ATTORNEY GENERAL, OFFICE OF LEGAL COUNSEL, U.S. DEPARTMENT OF 
                            JUSTICE

    Ms. Seitz. Thank you, and I would like to thank Senators 
Carper----
    Senator Whitehouse. Is your microphone on?
    Ms. Seitz. I would like to thank Senators Carper and Coons 
also for their kind introductions. I am grateful to the 
President for the honor of the nomination and to this Committee 
for its consideration.
    I would like to thank my family: my husband, Roy, who is a 
25-year veteran of the Department of Justice. We met while he 
was clerking for Justice Scalia and I was clerking for Justice 
Brennan. He is the best imaginable husband and father. My son, 
Roy, who is a sophomore at Field School. He is representing his 
sister, who is a sophomore at the University of Chicago. And my 
brother, C.J., who is representing my other brothers, Mark and 
Steven. And my niece, Meredith, who is representing too many 
nieces and nephews to count. And my absent parents, whom I wish 
very much could be here today.
    As has been mentioned, my father was the judge who ordered 
the immediate desegregation of public schools in Delaware. At 
the time his decisions were extraordinary and courageous. He 
believed, though, that the law required that result, and he was 
very passionate about the rule of law.
    If I am confirmed, I will do my best to follow in his 
footsteps, and I can make no deeper commitment.
    Thank you to the Committee.
    [The biographical information of Ms. Seitz follows.]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Senator Whitehouse. Thank you, Ms. Seitz.
    Ms. O'Donnell, it is now up to you to make your 
introductions and statement. We welcome you.

   STATEMENT OF DENISE E. O'DONNELL, NOMINEE TO BE DIRECTOR, 
    BUREAU OF JUSTICE ASSISTANCE, U.S. DEPARTMENT OF JUSTICE

    Ms. O'Donnell. Thank you, Senator Whitehouse. I also want 
to thank Senator Schumer for the very kind and generous 
introduction.
    I am deeply grateful to share the experience today with my 
family. With me is my husband, Hon. John O'Donnell, a justice 
of the New York State Supreme Court; my son, Jack O'Donnell; 
and watching from home are my daughter, Maura, an AUSA in the 
Western District of New York; her husband, Kevin, and their 
beautiful 4-month-old son, David O'Donnell Corbett. Also in 
spirit are my parents, Ken and Shirley Malainbeiter. My father 
was a World War II veteran, and both were very proud Americans 
who taught all of us the importance of giving back and 
instilled the values that I have embraced throughout my life 
and professional career.
    If I am confirmed, I am committed to do my very best and 
demonstrate that I am worthy of the trust of President Obama, 
of Attorney General Holder, and of each of you. And I thank you 
for having me here today to testify, and I look forward to the 
Committee's questions.
    Thank you.
    [The biographical information of Ms. O'Donnell follows.]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Senator Whitehouse. Thank you.
    I have the privilege of leading off, and I will ask 
questions briefly and then turn to the co-chair of this 
hearing. But we are joined by the Committee Chairman and the 
Ranking Member, and so I will take both the Committee Chairman 
and the Ranking Member out of order afterwards, and then we 
will go on to those who have been here.
    Chairman Leahy. And, Mr. Chairman, if you would yield just 
a moment, I think Ms. O'Donnell we should have had--with the 
litany of the names, we should have had her on March 17th, is 
when we should have had the hearing.
    [Laughter.]
    Ms. O'Donnell. Thank you, Senator. I was busy that day.
    [Laughter.]
    Senator Whitehouse. Mr. Verrilli, the Justice Department 
recently indicated in a letter to Congress and in court filings 
that it would no longer defend the constitutionality of the 
Defense of Marriage Act. I personally believe that DOMA was 
discriminatory and wrong, and I hope that it is quickly struck 
down or repealed. I am pleased to have cosponsored the Respect 
for Marriage Act with many other members of this Committee. But 
that is a little bit beside the point today.
    Mr. Verrilli, can you describe your involvement in the 
administration's decision to no longer defend the 
constitutionality of DOMA? And can you also share with us what 
standard you would use, if confirmed as Solicitor General, for 
deciding which statutes to decline to defend against 
constitutional challenge?
    Mr. Verrilli. Of course, Senator, but if I could start by 
amending an oversight in my introduction, I would like to thank 
Senator Blumenthal for that extraordinarily generous 
introduction.
    Having done that, we will move to your question. The short 
answer to your question, Senator, is that I had no involvement 
in any decision with respect to the defense of DOMA. I was 
recused from that matter as a consequence of the ethics pledge 
that I signed as an administration official upon coming into 
the executive branch. That ethics pledge imposed a 2-year bar 
on participation in any matter in which one's former employer 
was involved. My former law firm, Jenner & Block, was involved 
in at least one of the pieces of litigation challenging the 
act. I was not personally involved in the litigation, but my 
law firm was. And so as a consequence of the ethics pledge, I 
did not participate in any way in the decision respecting DOMA.
    With respect to the question of what standard I would apply 
if I am confirmed to the position of Solicitor General, I want 
to say first that I understand very well that the Solicitor 
General has responsibilities to this co-equal branch of 
Government, to the Congress, and that the core of that 
responsibility is to defend statutes that this body enacts. And 
if I am confirmed, I will apply the same standard that 
Solicitors General have applied historically and the Department 
of Justice applies. I will defend statutes when this body 
enacts them and when they are challenged as unconstitutional in 
court. And there are only two exceptions to that obligation. 
They are very rare, and they are the same exceptions that all 
prior Solicitors General have acknowledged.
    First, if in the view of the executive branch the 
legislation violates the separation of powers by making an 
incursion into the President's constitutional domain, that is 
one exception where there would not be a defense.
    The second is if there is no reasonable argument that can 
be advanced in defense of the statute.
    Those are the two and only two exceptions, and they are 
rare.
    Senator Whitehouse. Thank you, Mr. Verrilli. I think since 
I am going to be here until the end of hearing, I am going to 
reserve any further questions I may have for anybody else on 
the panel and turn to my distinguished co-chair, Senator Hatch, 
and then to our Chairman, Chairman Leahy, and then to our 
Ranking Member, Senator Grassley.
    Senator Hatch. Well, I will defer to the Ranking Member, 
Senator Grassley, for his questions, and then I will question, 
if I could, after Senator Leahy.
    Senator Whitehouse. We will do that. Grassley, Leahy, Hatch 
will be the order.
    Senator Grassley. Mr. Verrilli, a little bit along the 
lines of where the distinguished Acting Chairman left off, I 
would like to explore with you how you review the role of 
Solicitor General. Many times you as Solicitor General may not 
personally agree with a particular statute, yet you must 
enforce and defend these laws, regardless of your personal 
views, and I believe you must do so vigorously. I do not have 
any doubt that you would do that because that is your duty. You 
do not get to pick and choose which statutes to defend.
    If confirmed, would you vigorously enforce and defend the 
laws and the Constitution of the United States? And I believe 
you quite obviously said you would.
    Mr. Verrilli. Yes, I certainly will.
    Senator Grassley. OK. The President opposes the Defense of 
Marriage Act. Recently the Department of Justice announced that 
it would no longer defend the Act. I understand that you were 
recused and that that recusal ended a couple weeks ago from 
internal discussions on this issue based on work performed by 
your prior law firm. If you had been involved in the 
discussions in advising the President, would you have told him 
that the administration must defend the statute?
    Mr. Verrilli. Senator, I think that having been recused, I 
really did not play any role in thinking about the question of 
how to apply the traditional standards of reasonable argument 
and defense to this situation. I have read the letter that the 
Attorney General sent to the Congress pursuant to 28 U.S.C. 
Section 530(d). I have read the Attorney General's statement. 
Beyond that, I really do not have any developed sense about the 
legal analysis or issues.
    But what I can say about it is that I worked at the Justice 
Department for a year and worked with the Attorney General, and 
I have worked now for a little more than a year at the White 
House for the President. And based on that experience, I have a 
great deal of confidence--certainty, really--that each of them 
understood the gravity of this decision, each of them 
understood the difficulty of the issue, and each of them 
undertook to make a decision based on the law.
    Beyond that, I do not really think I can say more.
    Senator Grassley. If you are confirmed, you will be 
Solicitor General of the United States of America. Your client 
will no longer be the President. If the President believes a 
statute should not be defended but you believe there is a basis 
on which it is defended, would you vigorously defend it?
    Mr. Verrilli. Senator, I would certainly--if I believed 
that there was a basis for defending a statute, that would be 
the judgment I would make, that it ought to be defended, and I 
would--to the extent the President inquired, I would certainly 
provide the President with that advice.
    Senator Grassley. Does that include the Defense of Marriage 
Act?
    Mr. Verrilli. Well, Senator, the President has made a 
decision about the Defense of Marriage Act, and the Attorney 
General has made a decision about the Defense of Marriage Act.
    Senator Grassley. Well, then I think you answered this 
question just now, but let me ask it anyway. If the Attorney 
General concluded that a statute should not be defended but you 
disagreed, what would you do?
    Mr. Verrilli. Well, I would give my best advice to the 
Attorney General. Ultimately the Solicitor General is 
exercising authority that is given by statute to the Attorney 
General and delegated by regulation to the Solicitor General, 
so it is the Attorney General's authority. But I would in all 
instances give my best advice.
    Senator Grassley. Section 2 of the Defense of Marriage Act 
permits States to choose whether or not to recognize same-sex 
marriages from other States. Do you believe that this is a 
valid exercise of Congress' power? And would you defend Section 
2 of the Act if it is challenged in the Supreme Court?
    Mr. Verrilli. Senator, because I have been recused, I have 
not given any specific consideration to that issue, but I can 
pledge to you that I would apply the appropriate and 
traditional standards for deciding on defense of a statute in 
answering that question.
    Senator Grassley. Well, I guess to clarify, then, would you 
defend the Defense of Marriage Act as Solicitor General?
    Mr. Verrilli. I think the best I can say to you, Senator, 
is that I would in good faith apply the traditional Justice 
Department standards to answering that question to the extent 
it has not already been decided by the President and the 
Attorney General.
    Senator Grassley. You told the previous questioner, the 
distinguished Acting Chairman, that there were only two 
exceptions, and I do not see how the question I asked falls 
into either one of those exceptions. But I will leave it go at 
that.
    Thank you very much, Mr. Chairman.
    Senator Whitehouse. Thank you, Senator Grassley.
    Chairman Leahy.
    Chairman Leahy. Thank you. Thank you, Mr. Chairman.
    Let me just follow up a little on that, on DOMA. I read 
Attorney General Holder's detailed letter to the President, and 
he said he made his decision based on the legal analyses of the 
Justice Department, not his policy preferences. He determined 
that the courts apply heightened scrutiny to DOMA, a standard 
the Department is urging should apply because DOMA treats 
people differently based on their sexual preference. The law 
would not pass muster under the Equal Protection Clause of the 
Fifth Amendment, and he said that because of that the 
administration could not make a reasonable argument in the 
court that it was constitutional.
    Now, this is not really that different than any other 
administration. I know that in past administrations, Republican 
and Democratic, have done the same thing. One example brought 
out was in 1990 President George H.W. Bush's Acting Solicitor 
General did not defend an FCC policy, adopted at the urging of 
Congress, aimed at increasing minority ownership of radio and 
television stations, even though the FCC Chairman had asked the 
Bush administration to defend it. In fact, he submitted a brief 
to the Supreme Court arguing that the FCC policy violated the 
Equal Protection component of the Fifth Amendment, an argument 
they lost 5-4. That Solicitor General was John Roberts, who is 
now the Chief Justice of the Supreme Court.
    Do you have any problem, if you are Solicitor General, to 
defend the constitutionality of duly enacted statutes if 
reasonable constitutional arguments can be made?
    Mr. Verrilli. That is the responsibility of the Solicitor 
General, yes, Mr. Chairman.
    Chairman Leahy. Thank you. I also wanted to commend you on 
the significant work you have done to protect the Sixth 
Amendment right to effective counsel. I worry that too often 
that an individual's right to effective counsel depends upon 
how much money they might have. And I have asked a number of 
nominees about one particular precedent, Gideon v. Wainwright. 
It moved me a great deal as a young law student. I had an 
opportunity to sit at a lunch with Justice Hugo Black shortly 
after he authored Gideon. He said he recognized, of course, the 
Sixth Amendment's guarantee to counsel, a fundamental right, 
and so on. That wonderful book, ``Gideon's Trumpet,'' I recall 
reading that.
    But doesn't Gideon stand for the principle that, to be 
meaningful, such a fundamental right as a right to counsel 
requires assurances that it can be exercised, not just that it 
is there but it has to be exercised? And I am thinking 
particularly in capital cases.
    Mr. Verrilli. Yes, Senator, I think it does.
    Chairman Leahy. OK, and it is hard to pass legislation to 
assure that there is effective counsel.
    Now, because of your work there, some question of whether 
you can defend the Government's position in a capital 
punishment case, where they are seeking capital punishment, how 
do you feel about that?
    Mr. Verrilli. I understand that, Senator, there is a 
Federal death penalty law. It is enforced in appropriate cases. 
And if I were confirmed as Solicitor General, I would certainly 
and vigorously defend the application of the Federal death 
penalty law.
    Chairman Leahy. Thank you.
    Ms. Seitz, good to have you here.
    Ms. Seitz. Thank you.
    Chairman Leahy. While I did not know your father, I have 
great admiration for his courage. The role of the Justice 
Department's Office of Legal Counsel is to provide impartial 
and independent legal advice for the executive branch, and I 
have watched that carefully. I came here during the Ford 
administration. I have always watched OLC do that.
    The last administration, though, bothered me because they 
worked to advance extreme theories of Executive power. Last 
week, the Department released portions of a November 2nd 
opinion from John Yoo that said FISA only provides a safe 
harbor for electronic surveillance and cannot restrict the 
President's ability to engage in warrantless searches that 
protect national security. That seems an extreme view that we 
saw during the Yoo and Bybee era.
    Will you commit to do a comprehensive review of all OLC 
opinions currently in effect to make sure that you agree with 
those that are currently in effect and withdraw some that you 
think are either wrong or problematic?
    Ms. Seitz. Senator, I understand that a number of OLC 
opinions from that period have already been withdrawn or there 
has been an indication that they should no longer be relied on 
on the OLC FOIA reading room website. I understand also that a 
process of review is underway.
    Chairman Leahy. And you have no problem with that?
    Ms. Seitz. I have reviewed the OLC policies and procedures 
about when they reconsider decisions, how they go through 
decisions, and I would certainly commit to complying with those 
policies and procedures about review of OLC decisions in the 
past, and I have no problem with that.
    Chairman Leahy. Thank you.
    Thank you, Mr. Chairman.
    Senator Whitehouse. Thank you, Chairman Leahy.
    Senator Hatch.
    Senator Hatch. I welcome all three of you to the Committee 
and wish you well.
    Mr. Verrilli, is your duty as Solicitor General actually to 
defend if a reasonable argument exists or to give advice on 
that argument or that question?
    Mr. Verrilli. I think the longstanding tradition of the 
Department of Justice is to defend statutes so long as there is 
a reasonable argument to be made in their defense.
    Senator Hatch. Right. Now, in general, is it reasonable to 
assume that if the Department of Justice has, in fact, defended 
a statute that reasonable arguments exist to support that 
statute?
    Mr. Verrilli. I think in analyzing the question of whether 
reasonable arguments exist, that would certainly be an 
important consideration.
    Senator Hatch. That certainly would because the Department 
is already on record as saying it is reasonable.
    Would you allow a difference in administration, a 
Republican administration and a Democrat administration, to 
decide that issue? Or would you decide it based upon the fact 
that there was a reason to defend the statute of the United 
States?
    Mr. Verrilli. I think that Solicitors General and, if I am 
fortunate enough to be confirmed for this position, I would 
approach that as a question of law, which is how it should be 
approached. It is a legal question, and the question is whether 
there are reasonable arguments that can be made in defense of 
the statute.
    Senator Hatch. Well, let me just say this: You have 
impressive qualifications and a lot of support, and as I 
suggested in my opening statement, there are more concerns 
about the office than about you personally. In fact, I have a 
high respect for you. I need to know how you understand the 
Solicitor General's duty to defend the constitutionality of 
Federal statutes, and I want to approach that in a couple of 
different ways, if I can.
    In Ashcroft v. Free Speech Coalition, the Supreme Court 
struck down a Federal statute banning virtual child 
pornography. You signed a letter to this Committee opposing 
legislation that would respond to that decision. You expressed 
grave concerns about the bill and said that it would violate 
the First Amendment. And as you may know, I introduced that 
legislation in the 108th Congress, and it was cosponsored by 
several members of this Committee, including the Chairman and 
Ranking Member. Both my bill and the conference report passed 
the Senate unanimously, and in 2008 the Supreme Court voted 7-2 
to uphold it.
    Now, I have two questions. First, do you believe that the 
agreements in favor of my legislation's constitutionality were 
reasonable? And, second, if you had been Solicitor General at 
the time, would you have vigorously made such arguments despite 
personally believing that my legislation was unconstitutional?
    Mr. Verrilli. Yes, Senator, without reservation, and if I 
could just say with respect to that letter, if I am remembering 
correctly, expressed a revulsion with respect to child 
pornography, which I deeply feel, and it also expressed support 
for appropriate and vigorously of child pornography.
    I think one thing the letter said was that the legislation 
on which it was commenting had at least potentially a flaw that 
was the same flaw that had led the previous legislation to be 
held unconstitutional, and I was only making that narrow point. 
But even having said that, I just want to make absolutely clear 
that that is certainly a situation in which, had I been 
Solicitor General, I would have vigorously defended the 
statute.
    Senator Hatch. Well, thank you. Now, let me ask about this 
in a different way. Previous Solicitor General nominees have 
strongly endorsed the duty to defend the constitutionality of 
Federal statutes. When now Justice Elena Kagan was here in 
February 2009, for example, she said that the only exceptions 
to this duty, as you have stated, are when there is literally 
no reasonable argument that can be made and when a statute 
``infringes directly on the powers of the President.''
    I think you have said that you agree with this description 
of the Solicitor General's duty.
    Mr. Verrilli. I think that now Justice Kagan stated the 
standard, yes.
    Senator Hatch. OK. Now, I am sure--you know Drew Days was 
the first Solicitor General in the Clinton administration. He 
appeared before the Committee in May 1998-1993, rather. I was 
the Ranking Member of the Committee at that time and attended 
the hearing. He said the following: ``My understanding is that 
although the Attorney General and the President can direct that 
there not be support for acts of Congress, only rare instances 
would justify that and would have to relate to separation-of-
powers issues.'' Do you agree with that? I think you have 
pretty well said you agree with that.
    Mr. Verrilli. Well, I think that the--I think I agree with 
what General Days said, that the President and the Attorney 
General--at the end of the day, the Solicitor General works for 
the Attorney General, who works for the President, and, 
therefore, the Attorney General or the President can issue a 
direction of that kind. I do think that the standards that the 
Attorney General would apply would be the same traditional, 
longstanding standards that the Department of Justice applies 
generally. And so I think that the question really would be 
whether the Attorney General or the President are satisfied 
that those standards are met. There are going to be very rare 
instances. They are very difficult cases. But I think that 
would be the question they would have to answer.
    Senator Hatch. Thank you. My time is up, but I do have some 
further questions.
    Senator Whitehouse. We can continue into a second round 
once everybody has had their first round.
    Next in order is Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman. 
Congratulations to all of you.
    Ms. Seitz, if you are confirmed, you are going to be taking 
over as the head of an office that has gone without a Senate-
confirmed leader for 7 years since Jack Goldsmith left in 2004. 
What would some of your first priorities be if you were 
confirmed to serve in that position?
    Ms. Seitz. Thank you, Senator. The Office of Legal Counsel 
is primarily a reactive office--that is, the----
    Senator Klobuchar. Really.
    Ms. Seitz [continuing]. Problems come to it rather than it 
setting an agenda for resolution of decisions. So I assume that 
the problems that face the Department and agencies and the 
Presidency would form the basis for the legal questions which 
would then come to me, which would set my agenda for me.
    Just as a person coming into that situation with an 
absolutely stellar group of attorney advisers and first-class 
political and non-political deputies, I think my first step 
would be to learn from them, and then my second step would be 
to do my best to give the candid, principled, and independent 
advice that that office is called on to give.
    But we do not really set an agenda. The country sets the 
agenda for that office.
    Senator Klobuchar. Thank you.
    Ms. O'Donnell, the Director of the Bureau of Justice 
Assistance is a very important job, and I know that the goal--I 
know this as a former prosecutor. We worked with your office. 
But the goal is to create safer communities. And along with 
administering local grants and training local agents, two 
components of your job description really stick out to me: the 
first is the idea of encouraging innovation in programs; and, 
second, creating accountability for projects.
    As you know if you have been watching the news, we are in 
some very vigorous debates about the budget and how we best use 
the money that we have. Could you talk about how you would 
focus on making the work of this Department as accountable as 
possible to the public?
    Ms. O'Donnell. Absolutely. Thank you, Senator. As you heard 
from Senator Schumer, I did have the responsibility of serving 
as director of an agency that was the criminal justice agency 
that received BJA funds, so I have a track record and 
experience for making sure that we are accountable for those 
funds and consider it a priority to be a careful steward of 
funds that are entrusted to any agency that I would lead, would 
I be fortunate enough to be confirmed to head BJA.
    I think it is important to be fair and be objective in 
terms of the grant administration process and to ensure that we 
build in accountability measures and track the performance of 
the grants that we are funding.
    I also think that the role and the course that BJA is 
really headed on is to ensure that we promote evidence-based 
practice so that we support programs that have been proven and 
shown by the data to really work.
    Senator Klobuchar. I think that is going to be very 
important as we move forward. I think there has been more and 
more of that in criminal justice, but there has to be even more 
because sometimes people just keep going to one program because 
it has been there a long time. I think it is very important to 
look at them, so thank you.
    Mr. Verrilli, I just had one last question here for you. 
You have argued 12 cases before the Supreme Court, and I know 
that the Judiciary Committee received a letter on your behalf 
from almost 80 appellate advocates, folks from across the 
political spectrum singing your praises. In part, the letter 
reads, ``The successful functioning of the Solicitor General's 
office requires an ability to see the effects of particular 
arguments on the overall interests of the United States, both 
across agencies and over the long term. Shaping arguments to 
respect those interests and to protect the special credibility 
the office has acquired over the decades of its existence while 
maintaining clarity and force in presentations demands the 
whole range of knowledge, intelligence, judgment, and other 
capacities that Don has in abundance.''
    That is pretty nice. That is not my question, though.
    [Laughter.]
    Senator Klobuchar. My question is: The part of the letter 
that interests me, it says how important it is to protect the 
special credibility the office has acquired over the decades of 
its existence. How do you intend to do that?
    Mr. Verrilli. I intend to do that by following in the 
footsteps, if I am confirmed, of the great Solicitors General 
we have had in my lifetime as a lawyer, and the way in which 
they have distinguished themselves is by acting with integrity, 
acting with independence, calling them as they see them, 
essentially, and understanding that they have an obligation to 
all three branches of Government, they have an obligation to 
the rule of law. And I would, if I am confirmed, do my best to 
live up to those standards.
    Senator Klobuchar. Thank you very much.
    Senator Whitehouse. Senator Lee.
    Senator Lee. Thanks to all three of you for being here 
today. It is an honor to be here with you.
    Mr. Verrilli, I just had a few questions for you. Do you 
believe that it is the duty of the Solicitor General to advance 
the political agenda of the President?
    Mr. Verrilli. No, Senator, I do not think--I think the duty 
of the Solicitor General is to advance the long-term 
institutional interests of the United States, and it is not a 
partisan job.
    Senator Lee. So it is possible that those two things can 
conflict, the political agenda of the President on the one hand 
and the legal obligation to the United States on the other?
    Mr. Verrilli. Well, I think partisan considerations really 
should play no role in the judgment that a Solicitor General 
makes.
    Senator Lee. And it should be based on your understanding 
of the law and your ability to convey arguments to the Supreme 
Court based on the law and based on the Constitution and so 
forth. Is that----
    Mr. Verrilli. Certainly.
    Senator Lee. If I understand it correctly, Attorney General 
Holder sent a letter to House Speaker Boehner explaining the 
decision no longer to defend DOMA, and in that letter Attorney 
General Holder explained as follows. He said, ``Previously, the 
administration has defended Section 3 of DOMA in jurisdictions 
where circuit courts have already held that classifications 
based on sexual orientation are subject to rational basis 
review, and it has advanced arguments to defend DOMA Section 3 
under the binding standard that has applied in those cases.''
    He acknowledged that the Department of Justice attorneys 
had defended DOMA Section 3 on that basis, on the basis that 
rational basis review would apply. Is that your understanding 
as well?
    Mr. Verrilli. I have read the letter. I think that is what 
it says.
    Senator Lee. OK. Then the letter goes on to explain why he 
believes that that is not the appropriate standard, that 
heightened scrutiny ought to apply rather than rational basis. 
He goes on also to conclude that there is no reasonable 
argument that can be made to defend DOMA Section 3 under the 
rational basis standard or otherwise. So my question for you 
is: If the Department of Justice has defended the law that it 
later determines to have been so unconstitutional that no 
reasonable argument can be made in defense of it, does that 
mean that the Department of Justice attorneys who previously 
defended that law acted unreasonably?
    Mr. Verrilli. No, Senator, I do not think so. I mean, you 
know, these are quite rare circumstances, but they do arise, 
and they really have arisen in most administrations. There is 
an example that when Paul Clement, who was a superb Solicitor 
General, was here for his confirmation hearing, he described a 
case involving a law that this body had enacted which had 
prohibited bus advertisements favoring the legalization of 
marijuana for transit systems that received Federal funds, and 
that was a case that the Department of Justice had defended in 
the trial courts. There was a constitutional challenge to it, 
and the Department of Justice defended it in the trial courts, 
did its best. And as he explained to this Committee that, when 
he looked at it, he just made a judgment that applying the 
traditional standards you just could not mount a reasonable 
constitutional defense for it, and so he changed. And I do not 
think that implies anything about the judgment of the lawyers 
who had previously handled the case, and I think these things 
are really tough, and people make the best decisions they can. 
They apply the standards. They act in good faith. They take it 
seriously. They wrestle with it, and they do their best. So I 
do not think it implies anything one way or another about the 
reasonableness of the prior judgment.
    Senator Lee. Although here they are disagreeing not only as 
to the ultimate outcome as to constitutionality, but as to the 
standard that should apply, and they are arguing that no 
reasonable argument could be made that rational basis scrutiny 
would govern. That does seem to me to require a certain 
conclusion as a condition precedent to this decision not to 
defend it that those Department of Justice lawyers who 
previously defended it acted unreasonably in their defense of 
DOMA.
    Mr. Verrilli. Well, you know, because I was recused, I 
really--all I really know is what is in the letter. Having said 
that, I still do not think that I would be--I do not think I 
would reach that conclusion because these are tough decisions 
and people act in the best of faith and they make judgments 
that they think are reasonable.
    Senator Lee. Sure. And they sometimes make policy 
judgments, and it appears to me that this was a policy judgment 
made by this administration that although previous 
administrations had defended the law--the Clinton 
administration, given that President Clinton signed it into 
law, the Bush administration, and even the Obama administration 
had defended it--for policy reasons it was no longer going to 
defend it. But do you believe that a change in policy, a 
political calculation-based policy decision should affect the 
way the Solicitor General operates in deciding when, whether, 
and under what circumstances to defend a law?
    Mr. Verrilli. With respect to this decision, the DOMA 
decision, because I was recused, as I said, all I can say about 
it is based on having worked with the Attorney General and 
having worked for this President. And I do have confidence, 
Senator, that they wrestled with it, understood it was a rare 
circumstance and a grave decision, and made the best judgment 
they could on the law. And I think if I were confirmed as 
Solicitor General, I can assure you that decisions I make will 
be made on the law and not on partisan considerations.
    Senator Whitehouse. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Ms. O'Donnell, for the past two Congresses, I have worked 
with Ranking Member Grassley and with Chairman Leahy to 
introduce and pass legislation to eliminate our Nation's rape 
kit backlog. As I am sure you know from your work in New York, 
there are thousands of untested rape kits in crime labs and 
police departments all around the country, and victims are 
suffering because of it, and there are new victims because of 
the backlog.
    As part of the Government's economic recovery efforts, BJA 
awarded 12 grants to enhance forensic and crime scene 
investigations, three of which went to local governments in 
Minnesota. The BJA is also promoting the National Institute of 
Justice's new initiative on sexual assault kit evidence which 
will identify solutions to the nationwide problem of untested 
evidence.
    If you are confirmed, what will you do to ensure that BJA 
continues to coordinate and collaborate its work with other 
bureaus to work toward the goal of testing every evidence kit 
in this country?
    Ms. O'Donnell. Well, thank you, Senator. I did have the 
responsibility to oversee the DNA data bank in New York in my 
prior position. I know how important DNA is to solving crime, 
and particularly cases of sexual assault, as you point out. So 
I would certainly make this an important priority at BJA, were 
I fortunate enough to be confirmed.
    I know also that other OJP components, particularly NIJ has 
taken the lead in this area as well, and I think it is 
important that the different components collaborate and work 
together to try to support important initiatives like that.
    Senator Franken. Ms. Seitz, your amicus brief in Grutter v. 
Bollinger on behalf of former Pentagon officials received a lot 
of attention in that case. Can you tell us about that brief and 
about the position of those Pentagon officials?
    Ms. Seitz. In that brief we sought to make a contribution 
to the litigation in the Supreme Court of the question whether 
the affirmative action programs in place at the University of 
Michigan undergrad and in the law school were constitutional. 
One of the questions that might be helpful was the extent to 
which diversity was an important consideration in both 
admission to the military academies and in the constitution of 
the officer corps of the military branches of the U.S. 
Government. And so we, on behalf of a very prominent group of 
military officials, went to them and asked for their 
perspective on this as well as doing research into the policies 
at the various military academies and drafted a brief that was 
essentially descriptive of their views that diversity in the 
officer corps and diversity among those being trained for the 
officer corps was critically important. And so on their behalf, 
we simply presented that description of the interests of those 
military officers in that case, and that was an important 
consideration to the court in resolving the matter.
    Senator Franken. So my impression is that the court agreed 
with your arguments in the brief. Is that correct?
    Ms. Seitz. There were actually two cases, and what the 
court found was that the policy at undergraduate admissions was 
not constitutional and the policy in the admissions process in 
the law school was constitutional. And so there was sort of a 
division of opinion with respect to the constitutionality.
    Senator Franken. Thank you.
    Mr. Verrilli, if you are confirmed for this position, you 
will be responsible for coordinating the defense of the 
Affordable Care Act in our Nation's courts. That is an 
important job, and while I feel comfortable that the statute is 
constitutional, it is also a tough job.
    Tell me, why do you want to do this job?
    [Laughter.]
    Mr. Verrilli. Well, really so that I could get a chance to 
testify here today in front of this Committee.
    [Laughter.]
    Senator Franken. That is a sufficient answer. Thank you.
    [Laughter.]
    Mr. Verrilli. It is because it would be an extraordinary 
honor and privilege to represent the United States in front of 
the Supreme Court. I cannot think of anything that a person who 
loves this country and who loves being a lawyer could want to 
have more than the opportunity to serve in this role.
    Senator Franken. I think that is a better answer.
    [Laughter.]
    Senator Franken. Thank you, Mr. Chairman.
    Senator Whitehouse. Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I would like to ask Ms. O'Donnell: This morning for about 
2\1/2\ hours this Committee heard testimony from the Director 
of the FBI, and one of the points he made was the importance of 
resources. In fact, he said that the cuts that are contemplated 
under one of the budgets that is before the Congress now would 
prevent him from filling about 1,100 positions in the FBI, 
which would stall and severely undermine efforts to enforce the 
law. So resources matter. Cuts in the Federal budget have 
consequences not only to the Department of Justice but also to 
many of the State and local agencies with whom you will be 
working if you are confirmed.
    So I wonder if you could perhaps give us your views based 
not only on your nomination for this position at the Department 
of Justice but also as a line attorney in the Department of 
Justice, as an Assistant United States Attorney, and as United 
States Attorney in the Western District of New York as to the 
importance of resources in enforcing the law.
    Ms. O'Donnell. Thank you, Senator. Well, it is clear that 
law enforcement cannot do it without the resources to get the 
job done, and I think it is important that we provide the kind 
of support that our law enforcement officers need.
    On the State and local side, I would say that pretty much 
everything innovative being done by law enforcement in most of 
the States is done because of funding received from BJA, and in 
particular the Byrne grant funding. It funds innovative 
programs. It funds drug courts. It funds bulletproof vests. 
Like we said, it funds important intelligence-sharing 
capabilities. And those funds are really critical to all of our 
State and local and tribal partners, so we need the resources 
on the Federal side to support our Federal agencies, and our 
State and local law enforcement officers who are on the front 
lines fighting crime every day really require that we support 
their efforts.
    Senator Blumenthal. Thank you.
    Mr. Verrilli, as you have heard, there has been a lot of 
interest in when, if at all, you would decline to pursue a case 
because you thought there was no reasonable argument that could 
be made for the position of the United States, and you have 
referred to it as ``rare'' that you would reach that 
conclusion. And I assume by ``rare'' you do not just mean rare 
in the sense that we as lawyers rarely argue before the United 
States Supreme Court or we rarely take a trip around the world. 
It would be almost a unique situation that would cause you to 
reach that conclusion. Is that correct?
    Mr. Verrilli. Yes, definitely, Senator. These are really 
grave decisions, and they should be undertaken only with a 
deep, deep sense of the gravity and a deep sense of the 
responsibility and the strong presumption of constitutionality 
that every enactment of this body has.
    Senator Blumenthal. In fact, in seeking to uphold statutes, 
lawyers begin, if they represent either a State or the United 
States, with the argument that every statute that is passed by 
this legislative body, which represents the people of the 
United States, is entitled to a presumption of 
constitutionality. Is that so?
    Mr. Verrilli. That is absolutely right, Senator.
    Senator Blumenthal. And that is the approach you would take 
as Solicitor General of the United States?
    Mr. Verrilli. Yes, that is what I believe.
    Senator Blumenthal. Thank you.
    Senator Whitehouse. It would now ordinarily be Senator 
Sessions' turn, but he has graciously yielded to Senator Hatch, 
so I will turn to Senator Hatch and then Senator Sessions.
    Senator Hatch. Thank you. I have to get back to the office.
    I want to tell you two women that I think you are both 
very, very competent and good people. I had some questions for 
you, but I am not going to ask them. I intend to support both 
of you and wish you the very best in your positions. I just 
want to finish with Mr. Verrilli for a minute.
    Now, I acknowledge and realize that you were not in a 
decisionmaking role with regard to the DOMA matter and that it 
has been made and that this should not fall in your lap. But 
with respect, I need a simple and clear answer to this, and I 
think others will need this. If you believe that reasonable 
arguments exist to defend a statute's constitutionality but the 
Attorney General or President say otherwise, will you defend 
the statutes or not or resign?
    Mr. Verrilli. Senator, I would defend the statute unless 
instructed by my superior not to do so.
    Senator Hatch. Well, see, that is not a good answer. The 
Solicitor General has the obligation of defending the statute 
under those two conditions, and I added ``or resign'' not to 
get you out of the Solicitor General's office but to give you a 
reasonable out if you disagree with the President and/or the 
Attorney General on something as monumental as many think this 
issue is, or a similar issue. So I am just asking you, would 
you allow the President of the United States or the Attorney 
General of the United States to dictate to you as Solicitor 
General what you have got to do even though you know it is 
wrong under the rules and law?
    Mr. Verrilli. Well, Senator, the Solicitor General----
    Senator Hatch. You have the right to resign, but----
    Mr. Verrilli. Yes, Senator. The Attorney General was given 
the authority by Congress and has delegated that to the 
Solicitor General, and the Solicitor General is exercising the 
Attorney General's authority, and----
    Senator Hatch. No. The Solicitor General is exercising 
authority for our country.
    Mr. Verrilli. Yes, absolutely. Absolutely. He is exercising 
the judgment for our country.
    Senator Hatch. And irrespective of the Attorney General, 
and if you disagreed with the Attorney General, you know, 
that--let us just say if you disagree with the Attorney 
General, you have two choices, and you believe there is a 
reasonable reason for bringing the case or it does not involve 
the separation of powers, which are the two categories, then it 
looks to me like the only choice you have--if the Attorney 
General insists on making you do something you disagree with, 
the only choice you would have would be to resign.
    Mr. Verrilli. Well, I think resignation would be a very 
weighty step.
    Senator Hatch. Right.
    Mr. Verrilli. I do not think, Senator, that disagreement is 
the standard for resignation.
    Senator Hatch. We are not just talking about disagreement. 
We are talking about disagreement on principles that have long 
been established in the Justice Department over whether or not 
the Justice Department should act on behalf of the Congress--
well, on behalf of the statute duly passed by the Congress of 
the United States. This is important to us. We really believe, 
when we pass statutes up here, even when I am in the minority, 
that those statutes ought to be defended by the Justice 
Department unless you cannot find any reason to defend them or 
they infringe on the power of the President.
    Mr. Verrilli. Yes, Senator, and, you know, I think those 
standards are the correct standards.
    Senator Hatch. Well, then, if they are, why would you not 
resign if you were told to do something that you did not 
believe was right?
    Mr. Verrilli. Well, I think, Senator, it is just----
    Senator Hatch. I am not trying to get you to resign. I am 
trying to get you in there as Solicitor General.
    Mr. Verrilli. I am just trying to give you my best, honest 
answer here. I think resignation is a very weighty step, and it 
is something that I just find impossible to answer in the 
abstract, and I think the answer is, Are there circumstances in 
which I would feel that integrity and principle required me to 
resign? Certainly yes. But is that every disagreement? No.
    Senator Hatch. No, no. I am talking about----
    Mr. Verrilli. And so it is somewhere----
    Senator Hatch [continuing]. These principles that you 
articulate are the principles. And I am also talking about the 
fact that the Solicitor General is there for a real reason. And 
if somebody politically tries to get you to do something that 
is not right, no matter if it is the Attorney General or the 
President, you have an obligation to stand up for what is 
right, at least as you view it.
    Mr. Verrilli. I have done my best to answer you, Senator. I 
do think there are circumstances in which integrity and 
principle would compel to decide to resign----
    Senator Hatch. And there are circumstances where you would 
resign if that conflict occurred.
    Mr. Verrilli. Certainly, I cannot--as I said, it is very, 
very hard to answer in the abstract, but certainly there are 
circumstances----
    Senator Hatch. I do not think it is hard. I think it is 
just--if you disagree with them and it is a weighty issue and 
the case for the Congressional statute meets those two 
requisites and does not--you know, fits the standards that you 
have discussed here, then it seems to me you have no choice--
rather than acting politically, you have no choice but to 
resign. And I think that is a fair question. Like I say, I am 
not trying to get you to resign in advance on anything. I just 
want you to understand that it is that important that the 
Solicitor General's office never be politicized in any way, 
shape, or form, and that you live up to those two standards as 
a reason for defending--look, forget DOMA. That is important to 
a lot of us up here, but this is the Congress of the United 
States. We pass statutes that we believe are constitutional. 
Even if you do not believe that the statute is constitutional, 
if there is a reasonable basis for arguing that it is, and if 
it does not infringe on the President and separation of powers, 
then it seems to me you have an obligation to go forward and 
defend that statute on behalf of us up here--on behalf of the 
Congress of the United States, one of the separated powers.
    Mr. Verrilli. Those are the standards. I believe in them, 
and I----
    Senator Hatch. And you would live up to them?
    Mr. Verrilli. I intend to live up to them if I am 
confirmed.
    Senator Hatch. Well, OK. I just want you to know I have 
deep respect for you. We may disagree philosophically. I could 
care less with regard to your nomination. I want to support 
your nomination. And you can differ with me and still have my 
support because of your abilities and your capacities. But 
these are really important questions, and, frankly, a lot of us 
are very upset that it looks like the Attorney General of the 
United States--who I supported, by the way--has played a 
political card rather than a legal card at the request of the 
President of the United States. And that should not happen in 
the Department of Justice. We all rely on the Department of 
Justice to do what is right more than, I think, any other 
Department. And Members of Congress rely on the Department to 
sustain our statutes that we go through all kinds of pain to 
get through the Congress and not be vetoed by the President.
    So I just raise these issues because they are important 
issues, and like I say, I have great respect for you. You have 
a tremendous background, tremendous experience. There is no 
question you are a tremendous lawyer. And I respect both you 
and your wife, and I just wanted to make sure that we 
understand these issues as well as we can. I would feel better 
if you would say, ``Yes, I would resign before I would do 
something I knew was wrong.'' I think you are saying that, but 
I would like to hear it.
    [Laughter.]
    Mr. Verrilli. Well, Senator, I do believe that there could 
be circumstances in which integrity and principle would compel 
me to resign.
    Senator Hatch. That is all I am asking. That is all I am 
asking. And I do not want you to resign. I want you to 
fulfill----
    Mr. Verrilli. I am not there yet.
    [Laughter.]
    Senator Hatch. Well, I am trying to get you there, but you 
are not cooperating. You are being rebellious, is all I can 
say.
    No, I just----
    Senator Whitehouse. That is the independence you are 
looking for.
    Senator Hatch. That is right. Well, God bless you, and I am 
very much supportive of you two women as well, and hopefully 
you will do a very, very good job that will be apolitical in 
nature and that will carry on the duties of the Justice 
Department in your respective positions.
    Thank you.
    Senator Whitehouse. Senator Sessions.
    Senator Sessions. I share Senator Hatch's views very, very 
deeply, and I am very troubled by this White House and the 
Attorney General in failing to defend DOMA, the Defense of 
Marriage Act. It is unacceptable. It cannot be justified. It 
was direct interference politically by the President of the 
United States who during the campaign said he accepted and 
supported this Act. To say that Act is indefensible 
constitutionally cannot be justified. Two district courts have 
upheld it, in Washington and Florida. Five Federal courts have 
dismissed challenges to this Act. Two district courts have 
found it unconstitutional. But to say it cannot be defended is 
not correct.
    And would you not agree that in terms of all the people in 
the Department of Justice, the Solicitor General is the person, 
often called the Tenth Justice of the Supreme Court, is the one 
that has to stand firmest to defend the rule of law?
    Mr. Verrilli. Yes, I absolutely agree with that, Senator.
    Senator Sessions. And so I think Senator Hatch's question 
about resignation is not a light matter. In other words, what--
I would suggest what should have happened. The Solicitor 
General should have told the Attorney General, ``We cannot not 
defend that statute. It does not comply with the law.'' And the 
Attorney General should have told the President, ``I know you 
may have changed your mind, Mr. President, but this is a 
statutory law passed by the Congress of the United States. It 
has been upheld constitutionally, and it has to be defended. We 
cannot fail to defend that statute.''
    And then what happens? I think what happens is the 
President says, ``Well, OK. I wish you could. Are you sure you 
cannot? '' ``No, we cannot, Mr. President. You cannot take that 
position.'' And I think he would have backed off. If not, then 
you have to resign.
    That is the way the system works on a big issue like this 
because this is politics, and I went through the matter with 
now Justice Kagan, and I have to tell you that she took an oath 
before our Committee when she was confirmed as Solicitor 
General to defend this statute. Specifically she was asked 
would she defend this statute, and she said yes. And in my 
view--this is my--after looking at it very closely, in my view 
Solicitor General Kagan systematically worked with the lawyers 
attacking that statute to handle the appeals and the challenges 
to it in a way that furthered the goals of the ACLU, who were 
challenging it, and basically failed to aggressively defend the 
statute.
    So I would ask you this question: Not only should not as a 
matter of integrity the Solicitor General defend the lawful 
statutes of Congress, those if they have a basis to be defended 
within the standards as you have articulated them, but don't 
you have a duty to not in any way undermine the defense of 
those statutes, take any action that would weaken the defense 
of those statutes in court?
    Mr. Verrilli. Senator, let me----
    Senator Sessions. I am not asking you to agree with me 
about Justice Kagan. I am just saying as a matter of duty, if 
you share that word and the responsibilities it entails, that 
your duty includes not only defending it in court, but also 
taking no action that would weaken the defense of the statute.
    Mr. Verrilli. Senator, with respect to DOMA, of course, I 
was recused and, therefore, did not play any role in any of the 
litigation, not merely the decision not to defend but any of 
the litigation leading up to it. So I am not in a position to 
comment with any particularity about the way the defense was 
conducting. But going forward, Senator, if I am confirmed for 
this position, I would, of course, understand that the duty of 
the Solicitor General would be to defend those statutes that 
must be defended and to do so vigorously and to do so in a 
manner that does not undermine the defense of the statutes.
    Senator Sessions. Well, I think that is somewhat--I think 
that is accurate.
    Mr. Chairman, my time is up, and I will just conclude to 
say to me this is one of the more dispiriting things I have 
seen. I spent 15 years in the Department of Justice. My view 
was that a Solicitor General would never participate in what 
this Department's Solicitor General has participated in, the 
failure to defend the perfectly defensible statute. Maybe 
people can disagree about its constitutionality, but not that 
it is defensible or not. And I supported Attorney General 
Holder and have tried not to be a carping critic any more than 
necessary. But this one really hit me hard, and I think it goes 
to the integrity of the Department. And if you attain this 
position, you have got to be prepared to say no. And if you do, 
the politicians normally come around. You do not have to do it 
publicly. You just tell him, ``Mr. President, you cannot do 
that. Mr. Attorney General, I cannot argue that way. You cannot 
do it. It is wrong.'' And usually they will back down if you 
will stand firm.
    Thank you.
    Senator Whitehouse. Indeed, it would appear that Assistant 
Attorney General Comey did exactly that in the previous 
administration and I think reflected great credit on the 
Department in doing so. But the situation that we are presented 
with here is that the decision has already been made. It was 
made without Mr. Verrilli's participation. By the time he is 
confirmed, if he is confirmed, it will be behind the 
Department. It is not the Solicitor General's responsibility to 
go back and relitigate prior decisions that have been made. And 
I think that whatever our disagreements may be about the DOMA 
statute, it is not--blame is not ascribable to Mr. Verrilli in 
any portion, nor is this a decision that will be before him in 
his career because it has already been made. This decision has 
been taken.
    Senator Sessions. Well, I am trying to determine whether or 
not the next time another political interference in the rule of 
law occurs, pushed by the President of the United States or the 
Attorney General, whether this man will say no or not. That is 
what we are asking. And I think--I love the Department of 
Justice. I believe in the rule of law. And I have just got to 
say I sat here through attack after attack after attack because 
the Attorney General fired some United States Attorneys to put 
somebody else in and was accused of demeaning the integrity of 
the Department of Justice, and I think it was the normal kind 
of things that occur in appointment processes. But this goes to 
the integrity of the Department, the core of the integrity of 
the Department. At the highest levels it is unacceptable. And I 
hope that, if you are confirmed, you would have learned from 
this experience, and if you stand firm, usually they will back 
down.
    Mr. Verrilli. Thank you, Senator. I appreciate the advice 
very much.
    Senator Whitehouse. Let me conclude with--I left myself a 
little bit out of the questioning because by virtue of chairing 
I am always the last one here, so it is easier to let other 
people go and then wrap up. I just have a few points and 
questions.
    Ms. O'Donnell, with respect to Senator Franken's questions, 
we have the same situation in Rhode Island; we have backed up 
DNA evidence and other evidence. As you know as a prosecutor 
from your days at the United States Attorney's Office, if the 
forensic evidence takes too long to develop, that can have a 
dramatic impact on the testimonial evidence. Witnesses 
disappear, their memories fade. It can compromise a case in 
very significant ways. While it is sitting there on the shelf, 
not only is potentially the evidence itself degrading, but the 
rest of the case is degrading as well. And anything that you 
can do to use your good offices to try to reinforce the States 
who are under immense budget pressure are having to deal with 
this issue I think would be very welcome, and I would 
appreciate that.
    To Mr. Verrilli, I would just wish you well. I think that 
the point has been made that while there are disagreements that 
in your view would arise to the level of relatively minor 
disagreements, you can see the other side of the argument, for 
instance, and it is not the kind of disagreement with a 
superior that justifies having to resign rather than follow an 
order that you feel is wrong or inappropriate. I think the 
point of the questioning that you have received is that it 
needs to be clear to this Committee that you understand that 
the responsibilities of the Solicitor General can very well put 
you in that position, and you need to be willing, when those 
circumstances are appropriate, to take that step as necessary. 
And I think you made that point, but let me give you a chance 
to make that crystal clear.
    Mr. Verrilli. Yes, Senator, there is no doubt that if 
circumstances arose in which I thought as a matter of operating 
with personal integrity, as a matter of principle, and as a 
matter of ensuring fidelity to the rule of law that it was 
necessary for me to resign rather than carry out an order, then 
I would certainly do so.
    Senator Whitehouse. Thank you.
    Ms. Seitz, we talked about this in my office briefly, and I 
do not want to belabor the point. But as a graduate of the 
Department of Justice, I remain concerned by the matter that we 
talked about in my office, which is that the standard that the 
Margolis memo applies to the Office of Legal Counsel in terms 
of what the Department and its Office of Professional 
Responsibility expect of the Office of Legal Counsel is in my 
reading of it lower than what is expected of a regular 
practitioner hustling into court with bundles of files under 
his arms in a local trial court until the rules of professional 
conduct obligations of candor to the tribunal. And I hope that 
you will review that while you are there because I think it is 
a mistake for the Office of Legal Counsel, which has people of 
remarkable intellect and integrity, exercising sometimes our 
gravest national responsibilities, and in a position in which 
some of the checks and balances in an open courtroom do not 
apply, there is no opposing counsel to enlighten the tribunal 
as to the lack of candor of his or her adversary, and the 
tribunal--in this case, the President of the United States--
might not have either the capacity or the learning or the sense 
of a judge to engage in the kind of independent judgment that 
it is a judge's job to evaluate advocates' arguments with.
    So when you stack up the rule--I think it is 3.3--standard 
and you think of the situation in which that is applied and 
under which regular, ordinary lawyers are subject to 
discipline, it seems to me that the standard should be at least 
that high for the hyper-talented lawyers of the Office of Legal 
Counsel. So please take a look at that. If that could be 
corrected, I think that closes the last open issue with respect 
to that unhappy period in the Department's history.
    Ms. Seitz. Thank you, Senator. I will.
    Senator Whitehouse. And, finally, on the Affordable Care 
Act, just as a piece of unsolicited advice, I come from Rhode 
Island. We have guaranteed issue, which means that our 
insurance companies cannot refuse coverage to people just 
because they have a pre-existing condition. And we have 
accomplished that without any kind of a formal mandate that 
people have coverage. Massachusetts under the Romney plan did 
that, but Rhode Island has not, and I believe the other States 
are like us. And I say that to illustrate that there is no 
necessary connection between the so-called mandate and the 
other portions of the bill. And if the mandate has to fall, 
then Rhode Island stands as an example of how the other 
elements of the bill, particularly the restriction on chucking 
people off their insurance because they have pre-existing 
conditions, can nevertheless survive. And there has been a 
certain amount of sort of talk out there about how the mandate 
is the keystone piece and it is intrinsically linked to these 
other elements, and I would hate to see that develop in any way 
into the United States' position in that case because I think 
it is just plain wrong as a matter of both fact and logic. And 
it would be a shame if the mandate were to fall if it dragged 
other things down with it unnecessarily. If the mandate were to 
fall, that becomes the problem of the insurance industry, which 
was the beneficiary of the mandate to solve politically either 
in this body or at the State level where they have absolutely 
no constitutional restrictions on them.
    So you may not be conversant in how the health care laws of 
the different States apply, but I wanted to make sure you were 
aware that this supposed link between the mandate and the 
protection of children with pre-existing conditions was an 
accommodation of politics in this room and is not logically 
necessarily, and we proved that in our State.
    I wish all of you well. You will be serving, touch wood, in 
a great Department, one of which many of us are very, very 
proud. I think you sense that in the questioning today from 
both sides of the aisle, and we wish you well in your future 
positions in that Department.
    The record will be open for one further week for written 
follow-up questions. It goes without saying that the quicker 
you respond, the quicker you will be considered. So I urge 
rapidity as well as accuracy and completeness in the responses.
    With that, the hearing is adjourned and, again, I thank you 
all for your commitment to public service, for the 
extraordinary talents that you bring to this hearing, and I 
congratulate your families on what is a very auspicious day.
    Mr. Verrilli. Thank you, Senator.
    Ms. Seitz. Thank you.
    Ms. O'Donnell. Thank you, Senator.
    [Whereupon, at 4:30 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record.] 



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
